              u.s. GENERAL SERVICES ADMINISTRATION
              Office of Inspector General




June 5,2008




MEMORANDUM FOR               JAMES A. WILLIAMS, COMMISSIONER
                             FEDERAL ACQUISITION SERVICE (Q)

                                                          'Acv:jj( ~
FROM:                        DAVID K. STONE ,J..J
                             REGIONAL INSPECTOR GENERAL FOR AUDITING
                             GREAT LAKES REGION (JA-5)

SUBJECT:                    Audit of GSA Fleet's Alternative Fuel Vehicle Surcharges
                            Federal Acquisition Service
                            Report Number A070212/Q/5/P08005

This report presents the results of our audit of GSA Fleet's alternative fuel vehicle
surcharges. A draft report was submitted to you for comment. The comments were
considered in preparing the final report and are included in their entirety as an appendix.
We especially wish to express our appreciation for the cooperation and help GSA Fleet
provided us.

Section 810, Prompt Resolution of Audit Recommendations, of the National Defense
Authorization Act (Act) (Public Law 104-106) directs that management decisions are
required within six months of the audit report issue date. Nevertheless, as required by
GSA Order ADM P 2030.2C, a time-phased plan of action addressing the report
recommendation and the Management Decision Record for Internal Audit (MDR) should
be submitted within 60 days. You should complete Section B of the attached MDR and
return the complete package to the Assistant Inspector General for Auditing (JA), with a
copy to the Internal Control and Audit Division (BEl).

Section 810 of the Act also requires that final action on all management decisions must
be completed within 12 months of the audit report issue date; otherwise, the Office of
Inspector General must report in its Semiannual Reports to Congress matters on which
final actions have not been completed within 12 months of the report issue date.
Therefore, it would be most beneficial if, to the extent possible, your time-phased action
plan schedules actions to be completed within 12 months of the report issue date.




                     230 South Dearborn Street, Suite 408, Chicago, IL 60604
                                                    ~
                         Federal Recycling Program . .,   Printed on Recycled Paper
                                          -2-

A Customer Satisfaction Questionnaire, develpped to obtain your feedback regarding
the usefulness of the audit and the report, is attached. Please have the primary user of
the report complete the questionnaire. The completed questionnaire should be returned
in the enclosed envelope to:

                            Director, Operations Staff (JAO)
                            General Services Administration
                            Office of Inspector General
                            18th and F Streets, NW Room 5316
                            Washington, DC 20405

We hope you find the report helpful to your operations. If you have any questions
regarding the report, please contact Franklin Moy, Audit Manager, at (312) 353-6690, or
Edward Cullen, Auditor-in-Charge, at (312) 353-6745.

Attachments
        AUDIT OF GSA FLEET'S
ALTERNATIVE FUEL VEHICLE SURCHARGES
    FEDERAL ACQUISITION SERVICE
  REPORT NUMBER A070212/Q/5/P08005
             JUNE 5, 2008
                          AUDIT OF GSA FLEET'S
                  ALTERNATIVE FUEL VEHICLE SURCHARGES
                      FEDERAL ACQUISITION SERVICE
                    REPORT NUMBER A070212/Q/5/P08005


                             TABLE OF CONTENTS


                                                                    PAGE

REPORT LEDER                                                          1

INTRODUCTION

     Background                                                       2

    Objectives, Scope and Methodology                                 2

RESULTS OF AUDIT                                                      4

    Brief                                                             4

    Finding and Recommendation                                        4

    Finding - Accounting for Surcharges                               4

    Recommendation                                                    7

    Management's Response                                             7

    Internal Controls                                                 7

APPENDICES

    A. Federal Acquisition Service's Response to the Draft Report     8

    B. Report Distribution                                           10
                                  u.s. GENERAL SERVICES ADMINISTRATION
                                  Office of Inspector General




   Date:    June 5, 2008

Reply to
Attn. of:   Regional Inspector General for Auditing
            Great Lakes Region Field Audit Office (JA-5)

Subject:    Audit of GSA Fleet's Alternative Fuel Vehicle Surcharges
            Federal Acquisition Service
            Report Number A070212/Q/5/P08005

     To:    James A. Williams, Commissioner
            Federal Acquisition Service (Q)

            This report contains the results of our audit of GSA Fleet's (Fleet) alternative fuel vehicle
            surcharges.     The audit was conducted to help Fleet evaluate its AFV surcharge
            procedures and to determine if the procedures were in compliance with legal and
            accounting requirements.

            We concluded GSA Fleet's means of recouping the incremental costs it incurs furnishing
            alternative fuel vehicles to customers meet legal requirements and are reasonable in
            light of its need to control costs. To ensure sufficient funds are available to cover the
            added depreciation expense of AFVs, Fleet and FAS will need to monitor the amount of
            revenue directed to the Replacement Cost Pricing (RCP) account.

            A copy of your response to the draft report is provided in Appendix A.

            We hope the management and staff of GSA Fleet find the report helpful to their
            operations.

            SirJ.cerely, J   /J         .  I
       ~A...L-~ J.                      L.A    'C/
            Franklin M. Moy
            Audit Manager
            Great Lakes Region (JA-5)




                                         230 South Dearborn Street, guite 408, Chicago, IL 60604
                                                                           ~
                                               Federal Recycling Program . . .,   Printed on Recycled Paper
                            AUDIT OF GSA FLEET'S
                    ALTERNATIVE FUEL VEHICLE SURCHARGES
                        FEDERAL ACQUISITION SERVICE
                      REPORT NUMBER A070212/Q/5/P08005


                                    INTRODUCTION

Background

The Energy Policy Act of 1992 directed Federal agencies with fleets of 20 or more
vehicles in metropolitan statistical areas to include increasing percentages of alternative
fuel vehicles (AFVs) in their yearly vehicle acquisitions for metropolitan areas,
culminating in the requirement 75 percent be AFVs in 1999 and thereafter. The Act also
stated:

      The General Services Administration and any other Federal agency that
      procures motor vehicles for distribution to other Federal agencies may
      allocate the incremental cost of alternative fueled vehicles over the cost of
      comparable gasoline vehicles across the entire fleet of motor vehicles
      distributed by such agency.

Based on this legislation, subsequent Presidential executive orders, and business
concerns, GSA Fleet (Fleet) established the practice of determining the anticipated
incremental AFV charges for each customer agency annually. The incremental costs
were collected as lump sums, unique vehicle rates, or surcharges assessed in the
monthly billings of customers. Surcharge and lump sum revenues were deferred and
amortized over the life of the AFVs. Only agencies that acquired AFVs were charged,
and those paying through surcharges formalized the payment process through
Memorandums of Understanding with Fleet.

The Energy Policy Act of 2005 amended the Energy Policy Act of 1992 to read:

      The General Services Administration ... shall allocate the incremental cost
      of alternative fueled vehicles over the cost of comparable gasoline
      vehicles across the entire fleet of motor vehicles distributed by such
      agency. (Emphasis added.)

The legal change resulted in Fleet assessing all customers a surcharge, but at varying
rates, and in the surcharges no longer being deferred and amortized. Fleet asked for
the audit because it was concerned with retaining procedures that allowed it to control
AFV costs, while at the same time meeting legal requirements and accounting
standards.




                                            2
Objectives, Scope and Methodology

The audit objectives were to determine:

   1. Are AFV incremental costs collected and recorded in accordance with laws,
      regulations and accounting principles?

   2. Are the procedures for collecting and recording the incremental costs efficient
      and reasonable?

To accomplish our audit we visited the Financial Information Control Division, Payroll,
Accounting and Financial Services Heartland Center, Kansas City, Missouri; the
Financial Consulting and Analysis Division, Office of Finance, Washington, DC; the
Budget and Finance Management Division, FAS Controller's Office, Arlington, Virginia;
and the GSA Fleet headquarter offices, Arlington, Virginia to obtain information
regarding the surcharges. We also reviewed applicable laws and analyzed GSA Fleet's
vehicle data. The audit was carried out between August 2007 and February 2008 in
accordance with generally accepted Government auditing standards.




                                          3
                                 RESULTS OF AUDIT

Brief

We concluded GSA Fleet's means of recouping the incremental costs it incurs
furnishing alternative fuel vehicles to customers meet legal requirements and are
reasonable in light of its need to control costs. To ensure sufficient funds are available
to cover the added depreciation expense of AFVs, Fleet and FAS will need to monitor
the amount of revenue directed to the Replacement Cost Pricing (RCP) account.

Finding and Recommendation

Finding - Accounting for Surcharges

The total revenue going into the RCP Account, which is now funded from AFV
surcharges as well as RCP charges that are a part of the base lease rates, will need to
be properly monitored to ensure the total in the fund is not excessive, and sufficient
revenue remains available to cover the added depreciation expense of AFVs. Allowing
the RCP charges to change without adjustments in the total monthly lease rates would
provide additional revenue to cover depreciation expenses and prevent the funds in the
RCP Account from becoming excessive.

The changes dictated by the Energy Policy Act of 2005 resulted in Fleet assessing all
customers an AFV surcharge beginning in October 2006. However, many of the
fundamentals of the previous system were retained. Although all agencies were
charged something, Fleet negotiated with the major AFV users to establish the number
of AFVs to be furnished, their anticipated total incremental cost, and the surcharges to
be assessed to recover the costs. These negotiations took place through telephone
conversations, meetings and emails, but memorandums of agreement or similar formal
documents were not executed. Fleet monitored the collections from each agency, and
as the desired amounts were collected, the surcharges were terminated.

These procedures allowed Fleet a means of recouping incremental AFV costs from
customers that demanded models more costly than the norm for AFVs or quantities in
excess of those mandated by Congress, and preventing unreasonable cross subsidizing
between customer agencies. The incremental costs of hybrids and compressed natural
gas vehicles have approached and exceeded $10,000 per vehicle, so if not monitored
the costs can become substantial.

Fleet collects the total incremental costs of AFVs during the vehicles' first year of
operation. The charges are recognized as revenue when billed, and added to the RCP
account, a capital reserve account developed to cover the shortfall Fleet would
otherwise experience in its accumulation of capital for replacement vehicles. It was set
up in response to a 1978 Congressional authorization that allowed GSA to include an
increment in the prices it charges customers to cover the replacement cost of vehicles.
This increment was in addition to the price Fleet charged to recover the purchase price


                                            4
of the vehicle to be replaced. The money placed in this account "... shall be available
only for replacement of such motor vehicles, equipment and supplies." Funds in it are
not available to cover operating costs.

The depreciation calculations for the AFVs are based on their total capital cost,
including the incremental AFV costs. However, the base monthly AFV lease rates do
not include the AFV incremental costs. The base lease rates are those established to
recover the capital cost for non-AFV gasoline fueled vehicles, not the higher cost AFVs.

For instance, if a gasoline fueled vehicle cost $15,000 and the alternative fueled version
cost $17,000, the AFV incremental cost would be $2,000. Fleet collects the entire
$2,000 in the year the vehicle is purchased for the customer. It is collected along with
the incremental costs of all the newly acquired AFVs furnished the using agency for the
current year, through a uniform surcharge added to the base monthly rates for all the
vehicles leased to the agency. Once the total incremental charges for the agency's
AFVs are collected, Fleet stops the surcharge for the remainder of the fiscal year.

As noted, the base monthly lease rate for the vehicle is the rate for a gasoline fueled
vehicle. The lease rate is therefore set to recover the $15,000 (less salvage value) paid
for the gasoline powered version of the vehicle, not the $17,000 paid for the AFV
version. At the end of the life of the gasoline powered vehicle, Fleet will have recovered
its original $15,000 investment through a combination of the monthly lease rates and
revenue from sale of the vehicle. However, for the AFV, Fleet will not have recovered
the $2,000 in the base lease rates because it was not included in the regular monthly
charges for the vehicle. The $2,000 was recovered through the surcharges assessed
the agency during the vehicle's first year of operation and added to the RCP account.
The surcharges are placed in the RCP account because their purpose is to assist with
the purchase of vehicles. The AFV surcharges are in addition to the RCP charge, which
is part of the base lease rate designed to account for inflation. Revenue placed in the
account is set aside for purchasing vehicles and is not available for operating expenses,
including depreciation.

The depreciation schedule for the vehicle is based on its $17,000 purchase price. The
depreciation expense for the vehicle over its expected life will be about $2,000 greater
than the monthly lease revenue received for the vehicle. Prior to billing changes
dictated by the Energy Policy Act of 2005, the surcharges were placed in a deferred
account and amortized to current revenue over the expected life of Fleet's ownership of
the AFVs. This resulted in the surcharge revenue increasing current income by
approximately the same amount as the increased depreciation expense the incremental
costs caused.

With the legislative changes that required Fleet to allocate the incremental costs over
the entire fleet, Fleet no longer established signed agreements with customers ordering
AFVs in a given year. It did negotiate surcharge rates with those customers ordering
large numbers of AFVs, but charged a minimum rate for those ordering small quantities,
or no AFVs. Even though many of the basics of the previous procedures were kept in


                                            5
place, not all surcharges totaled the incremental cost of AFVs purchased for the agency
paying the surcharge. The surcharges also were no longer tied to signed agreements
for specific type vehicles. As a result, surcharge revenue was no longer deferred and
amortized, but was added to the RCP account. This opens up the potential of excess
funds being set aside as reserve capital and not enough being available for the added
AFV depreciation expenses. Monitoring the revenues going into the RCP account can
avoid this outcome.

Many AFV surcharges are prepayments of part of the cost of vehicles agencies ordered,
as was the case prior to the FY 2007 changes, and some are not. That is, while all
agencies are required to contribute to AFV funding, not all agencies will order AFVs
every year. Further, AFV surcharges are negotiated between Fleet's central office and
agency headquarter operations, but vehicle ordering and replacement takes place
locally. As a result there is not a precise match between projected and actual AFV
surcharges.

Fleet could simplify accounting for AFV incremental costs by including them in overall
vehicle rates. This would result in some agencies subsidizing the AFV purchases of
other agencies much more than is currently the case. Because of its desire to control
AFV costs and prevent unreasonable agency cross subsidizing, Fleet has elected to
continue the surcharges.

Total surcharges for FY 2007 were over $11 million. The incremental costs for FY 2008
were anticipated at over $20 million at the beginning of the fiscal year, but actual
incremental costs were about $14 million. Fleet's total annual revenue is over $1 billion
per year.

After considering:
    • the surcharges percentage of Fleet's annual revenue and their relative
        immateriality,
    • the totals paid per agency in relationship to their annual payments to Fleet,
    • the added cost of accounting for the surcharges in some other manner, and
    • the flexibility provided GSA for setting aside revenue for replacing Fleet's
        vehicles,
we concluded the current surcharges and their placement in the RCP account are
satisfactory.   Fleet and FAS will need, however, to monitor the total revenue
accumulated in the fund to ensure it is not excessive, and sufficient funds are being
made available to cover the added depreciation expense of the AFVs.




                                           6
Recommendation

We recommend to the Commissioner, Federal Acquisition Service,
   1. GSA Fleet continue to add the alternative fuel vehicle surcharge revenue to the
      Replacement Cost Pricing account and monitor the account to assure the fund
      balance is appropriate.

Management's Response

The Commissioner, Federal Acquisition Service, concurred with the recommendation in
his response to the draft report. A copy of his response is provided in Appendix A.

Internal Controls

No significant control weaknesses were noted during the audit.




                                          7
                                                                                                APPENDIX A

                      AUDIT OF GSA FLEET'S
              ALTERNATIVE FUEL VEHICLE SURCHARGES
                  FEDERAL ACQUISITION SERVICE
                REPORT NUMBER A070212/Q/S/P0800S




                                                             GSA ~ Acquisition Service




      MAY 29 ZXlll




SUBJECT:                 GSA Draft Report, "Audit of GSA Fleet's Alternative Fue
                         Vehicle Surcharges, Federal Acquisition Service"
                         (A070212JQ/5)


Thank you for the opportunity to revlew1he above-referenced draft report. I gen,~rally
concur with the report's findings and recommendation. Specific comments on SlIme of
the findings are provided in the attached statement.

Please call me at (763)' 605-5400 if you have any questions. Your staff may contact
Ms. Cathy Flck at (703) 605-5452 or catherlne.fick@gsa.gov f6f additional infonnation.

Attachment

cc:      Andrew Patchan                            ',
         Assistant Inspector General for Auditing (IN

         Edward Cullen
         Auditor-in-Charge (JA-5)




                                                            u.s. -.ral s..... ~.....ni.tJ-.tI....
                                                            2200 CrYltol Drl••
                                                            Arlington. VA l!lI406-OOOS
                                                            www.gaa.gov




                                             8
                                                                                   APPENDIX A

                 AUDIT OF GSA FLEET'S
         ALTERNATIVE FUEL VEHICLE SURCHARGES
             FEDERAL ACQUISITION SERVICE
           REPORT NUMBER A070212/Q/5/P08005



                  FAS Comments on the GSA Draft Report,
         "Audit of GSA Fleet's AlternativG Fuel Vehicle Surcharges"
                       Report Number A070212/Q/5


Page 3, last sentence in the first paragraph under Finding - Accountil!D
for Surcharges:
"MoAiteRAg and adjusting Allowing the RCP charges to change that are l'laf1-Gf
the ease lease rate6 without adjustments in the total monthly lease rates we uld
provide additional revenue to cover depreciation expenses and prevent the 'unds
in the RCP Account from becoming excessive:

Last sentence on page 3, continuing to page 4:
"It was set ~ increment in the prices it charges customers to cover the
replacement cost of vehicles."

Page 5. second sentence of the stn:ond paragraph:
"That is, while all agenci~s are required to contribute to AFV funding   ~ear,
not all agencies will order AFVs every year."




                                                         ..\




                                          9
                                                            APPENDIX B

                            AUDIT OF GSA FLEET'S
                    ALTERNATIVE FUEL VEHICLE SURCHARGES
                        FEDERAL ACQUISITION SERVICE
                      REPORT NUMBER A070212/Q/5/P08005


                                REPORT DISTRIBUTION

                                                                Copies
Commissioner, Federal Acquisition Service (Q)                      3

Assistant Commissioner, Office of Travel, Motor Vehicles,
and Card Services (QM)                                             1

Director, Office of Motor Vehicle Management (QMD)                 1

Assistant Inspector General for Auditing (JA)                      3

Internal Control and Audit Division (BEl)                          1




                                            10
